UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

October 19, 2020
Christopher M. Wolpert
Clerk of Court

TOBIKILMAN,
Plaintiff - Appellant,
v.

No. 19-1476
(D.C.No. 1:19-CV-02265-LTB-GPG)
(D. Colo.)

DEAN WILLIAMS, Executive Director of
the Colorado Department of Corrections;
RICK RAEMISCH, Former Executive
Director of the C.D.O.C.; JAMES
RICKETS, Former Executive Director of
the C.D.O.C.; TOM CLEMENTS, Former
Executive Director of the C.D.O.C.; JOHN
SUTHERS, Former Executive Director of
the C.D.O.C.; JOE ORTIZ, Former
Executive Director of the C.D.O.C.;
ARISTEDES ZAVARES, Former
Executive Director of the C.D.O.C.;
FRANK GUNTER, Former Executive
Director of the C.D.O.C.; WALTER
KAUTZKY, Former Executive Director of
the C.D.O.C. and unnamed former
executive director of the C.D.O.C. Circa
1990-2019,
Defendants - Appellees.

ORDER AND JUDGMENT*

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

(U

Before TYMKOVICH, Chief Judge, HOLMES and MORITZ, Circuit Judges.
Tobi Kilman appeals pro se from the district court’s judgment dismissing his
42 U.S.C. § 1983 action. Exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
I. Background
Kilman was a Colorado state prisoner at four different times between 1997 and
2017. In his complaint in this action, filed after his 2017 release, he alleged that he
was deprived of 56 months of statutory good-time and eamed-time credits. He
asserted that this deprivation violated his rights under the Fifth, Eighth, and
Fourteenth Amendments. He sought damages against the current and former
Executive Directors of the Colorado Department of Corrections (CDOC) in their
individual capacities. His theory was that beginning in 1990, Executive Director
Kautzky implemented a policy of improperly awarding good-time and earned-time
credits, and successive Executive Directors have continued the policy.
After granting Kilman leave to proceed in forma pauperis (IFP), a magistrate
judge screened the complaint and ordered Kilman to show cause why the district
court should not dismiss it. Kilman responded. The magistrate judge then issued a
report and recommendation that the action should be dismissed pursuant to Heck v.
Humphrey, 512 U.S. All (1994). Under Heck, if “a judgment in favor of [a state
prisoner] would necessarily imply the invalidity of his conviction or sentence,” a
district court must dismiss a § 1983 action “unless the plaintiff can demonstrate that
2

the conviction or sentence has already been invalidated.” Id. at 487. In the
alternative, the magistrate judge recommended dismissing the complaint as legally
frivolous under 28 U.S.C. § 1915(e)(2)(B)(i) for failure to allege facts showing either
a constitutional violation or personal participation by any of the named defendants.
Kilman filed timely objections to the magistrate judge’s recommendation. The
district court accepted and adopted the recommendation and dismissed the action for
the reasons stated in the recommendation. Kilman appeals.
II. Discussion
Kilman primarily argues that Heck does not apply to his action because he did
not seek to invalidate either his convictions or his sentences but only the manner in
which his sentences were imposed. We disagree and therefore affirm the district
court’s dismissal based on Heck. Consequently, we need not reach Kilman’s other
arguments.
Because the district court dismissed Kilman’s action as part of the IFP
screening process, we construe its Heck dismissal as one under § 1915(e)(2)(B)(ii)’s
directive that a court must dismiss an action if it “fails to state a claim on which relief
may be granted.” See Smith v. Veterans Admin., 636 F.3d 1306, 1312 (10th Cir.
2011) (“[T]he dismissal of a civil rights suit for damages based on prematurity under
Heck is for failure to state a claim.”). Thus, our review is de novo. See Kay v.
Bemis, 500 F.3d 1214, 1217 (10th Cir. 2007) (applying de novo review to dismissal
of IFP complaint for failure to state a claim under § 1915(e)(2)(B)(ii)). We afford a

3

liberal construction to Kilman’s pro se filings, but we may not act as his advocate.
See Yang v. Archuleta, 525 F.3d 925, 927 n.l (10th Cir. 2008).
In applying Heck, the district court relied on our unpublished decision, Kailey
v. Ritter, 500 F. App’x 766 (10th Cir. 2012). In Kailey, we held that Heck barred a
§ 1983 claim that Colorado prison officials violated a prisoner’s constitutional rights
under the First, Fifth, and Fourteenth Amendments when they failed to award him
earned-time credits. See id. at 767, 769. Kilman attempts to distinguish Kailey in
three ways: (1) Kailey was subject to discretionary parole, but Kilman was subject to
mandatory parole, so Kilman has a liberty interest in the credits he allegedly did not
receive; (2) Kailey’s action had technical and procedural issues that are lacking here;
and (3) Kailey argued that earned-time credits could not be withheld for bad
behavior, but Kilman raises no such argument. While these distinctions exist,
Kilman does not explain why they are material to the Heck analysis, and we see no
materiality. In Kailey, our application of Heck did not turn on any of the factual
distinctions Kilman highlights.
But regardless of Kailey, the Supreme Court has made clear that under its
precedent, including Heck, a writ of habeas corpus is the sole federal remedy in cases
where a state prisoner seeks any relief, damages or otherwise, that would “necessarily
demonstrate the invalidity of confinement or its duration.” Wilkinson v. Dotson,
544 U.S. 74, 82 (2005). Kilman’s success in a § 1983 action for damages based on
the deprivation of good-time and earned-time credits would require a federal court to
determine that prison officials wrongly deprived him of those credits and held
4

Kilman longer than they should have. That would necessarily demonstrate that the
duration of Kilman’s confinement was invalid, even if his claim is viewed purely as a
due process challenge to CDOC’s allegedly wrongful procedure for computing
credits. See Edwards v. Balisok, 520 U.S. 641, 646 (1997) (applying Heck to
prisoner’s § 1983 suit that, if successful on procedural challenge, would imply the
invalidity of the deprivation of good-time credits). Accordingly, to obtain federal
relief, Kilman had to pursue a writ of habeas corpus.
As the district court noted, Heck does not apply when a plaintiff has no
available habeas remedy, but the plaintiff must show that the lack of a habeas remedy
is “through no lack of diligence on his part.” Cohen v. Longshore, 621 F.3d 1311,
1317 (10th Cir. 2010). The only statement in Kilman’s appellate brief that could be
construed as relevant to the Cohen exception is his claim that he was simply unaware
of the CDOC’s “corrupt time-computation practices until he had already [been]
discharged.” Aplt. Br. at 4. His lack of awareness, however, shows nothing more
than a lack of diligence in filing any habeas petitions during his incarcerations. See
Marsh v. Soares, 223 F.3d 1217, 1220 (10th Cir. 2000) (“[I]t is well established that
ignorance of the law, even for an incarcerated pro se petitioner, generally does not
excuse prompt filing.” (internal quotation marks omitted)). Kilman, therefore, has
A

not shown that Cohen's exception to Heck applies.
III. Conclusion
The district court’s judgment is affirmed. We grant Kilman’s motion to
proceed IFP on appeal and remind him of his obligation to continue making partial
5

payments until the appellate filing and docketing fees are paid in full. See 28 U.S.C.
§ 1915(a)(1) (excusing only “prepayment of fees”); id. § 1915(b)(1) (requiring
prisoners to make partial payments of filing fees). 1
Entered for the Court
Per Curiam

1

Section 1915(b)(l)’s partial-payment fee provisions apply to Kilman because
at the time he filed this appeal, he was a pretrial detainee at a Colorado county
detention center.
6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

Civil Action No. 19-CV-02265-LTB-GPG
TOBI KILMAN,
Plaintiff,

v.
DEAN WILLIAMS, Executive Director of the Colorado Department of Corrections,
RICK RAEMISCH, Fmr. Exec. Dir. of the C.D.O.C.,
JAMES RICKETS, Fmr. Exec. Dir. of the C.D.O.C.,
TOM CLEMENTS, Fmr. Exec. Dir. of the C.D.O.C.,
JOHN SUTHERS, Fmr. Exec. Dir. of the C.D.O.C.,
JOE ORTIZ, Fmr. Exec. Dir. of the C.D.O.C.,
ARISTEDES ZAVARES, Fmr. Exec. Dir. of the C.D.O.C.,
FRANK GUNTER, Fmr. Exec. Dir. of the C.D.O.C.,
WALTER KAUTZKY, Fmr. Exec. Dir. of the C.D.O.C., and
UNNAMED FORMER EXECUTIVE DIRECTOR OF THE C.D.O.C. CIRCA 1990-2019,
Defendants.

ORDER

This matter is before the Court on the Recommendation of United States
Magistrate Judge filed November 14, 2019 (ECF No. 15). Plaintiff has filed timely written
objections to the Recommendation (ECF No. 16). The Court has therefore reviewed the
Recommendation de novo in light of the file and record in this case. On de novo review
the Court concludes that the Recommendation is correct. Accordingly, it is
ORDERED that the Recommendation of United States Magistrate Judge (ECF
No. 15) is accepted and adopted. It is

1

FURTHER ORDERED that the Complaint (ECF No. 1) and the action are
dismissed pursuant to the rule in Heck v. Humphrey, 512 U.S. 477 (1994), and as
legally frivolous pursuant to 28 U.S.C. § 1915(e)(2)(B)(i). It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied without prejudice to the filing of a motion seeking leave to proceed in forma
pauperis on appeal in the United States Court of Appeals for the Tenth Circuit. The
Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this dismissal
would not be taken in good faith.
DATED: December 10, 2019
BY THE COURT:

s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

2

Case l:19-cv-02265-LTB-GPG Document 15 Filed 11/14/19 USDC Colorado Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Gordon P. Gallagher, United States Magistrate Judge

Civil Action No. 19-cv-02265-LTB-GPG
TOBI KILMAN
Plaintiff,
v.
DEAN WILLIAMS, Executive Director of the Colorado Department of Corrections,
RICK RAEMISCH, Fmr. Exec. Dir. of the C.D.O.C.,
JAMES RICKETS, Fmr. Exec. Dir. of the C.D.O.C.,
TOM CLEMENTS, Fmr. Exec. Dir. of the C.D.O.C.,
JOHN SUTHERS, Fmr. Exec. Dir. of the C.D.O.C.,
JOE ORTIZ, Fmr. Exec. Dir. of the C.D.O.C.,
ARISTEDES ZAVARES, Fmr. Exec. Dir. of the C.D.O.C.,
FRANK GUNTER, Fmr. Exec. Dir. of the C.D.O.C.,
WALTER KAUTZKY, Fmr. Exec. Dir. of the C.D.O.C., and
UNNAMED FORMER EXECUTIVE DIRECTOR OF THE C.D.O.C. CIRCA 1990-2019
Defendants.

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

This matter comes before the Court on the Complaint (ECF No. 1)1 filed pro se
by Plaintiff, Tobi Kilman, on August 8, 2019. The matter has been referred to this
Magistrate Judge for recommendation (ECF No. 14.)2

1 “(ECF No. 1)" is an example of the convention I use to identify the docket number assigned to a specific
paper by the Court’s case management and electronic case filing system (CM/ECF). I use this convention
throughout this Recommendation.
2 Be advised that all parties shall have fourteen (14) days after service hereof to serve and file any written
objections in order to obtain reconsideration by the District Judge to whom this case is assigned. Fed. R.
Civ. P. 72(b). The party filing objections must specifically identify those findings or recommendations to
which the objections are being made. The District Court need not consider frivolous, conclusive or
1

Case l:19-cv-02265-LTB-GPG Document 15 Filed 11/14/19 USDC Colorado Page 2 of 7

The Court must construe the Complaint and other papers filed by Mr. Kilman
liberally because he is not represented by an attorney. See Haines v. Kerner, 404 U.S.
519, 520-21 (1972); Hall v. Bellmen, 935 F.2d 1106, 1110 (10th Cir. 1991). However,
the Court should not be an advocate for a pro se litigant. See Hall, 935 F.2d at 1110.
The Court has reviewed the filings to date. The Court has considered the entire
case file, the applicable law, and is sufficiently advised in the premises. This Magistrate
Judge respectfully recommends that the Complaint be dismissed.
I. DISCUSSION
Mr. Kilman has been granted leave to proceed in forma pauperis pursuant to 28
U.S.C. § 1915. Therefore, the Court must dismiss any claims in the Complaint that are
frivolous. See 28 U.S.C. § 1915(e)(2)(B)(i). A legally frivolous claim is one in which the
plaintiff asserts the violation of a legal interest that clearly does not exist or asserts facts
that do not support an arguable claim. See Neitzke v. Williams, 490 U.S. 319, 327-28
(1989).
Mr. Kilman is an inmate at the Arapahoe County Detention Facility in Centennial,
Colorado. He claims his Eighth Amendment rights were violated while he was a prisoner
in the custody of the Colorado Department of Corrections (“DOC”). He alleges in

general objections. A party's failure to file such written objections to proposed findings and
recommendations contained in this report may bar the party from a de novo determination by the District
Judge of the proposed findings and recommendations. United States v. Raddatz, 447 U.S. 667, 676-83
(1980); 28 U.S.C. § 636(b)(1). Additionally, the failure to file written objections to the proposed findings
and recommendations within fourteen (14) days after being served with a copy may bar the aggrieved
party from appealing the factual findings of the Magistrate Judge that are accepted or adopted by the
District Court. Thomas v. Am, 474 U.S. 140, 155 (1985); Moore v. United States, 950 F.2d 656, 659 (10th
Cir. 1991).
2

;

i

-r

;

-J

z.

5.

;

i

?

;

)
!

V

:.} \

I
J'

\

0:v
V

*

4

j
5

!

;• o J1

r

;

..*?■

!
t

;
1

!

V

;

Case l:19-cv-02265-LTB-GPG Document 15 Filed 11/14/19 USDC Colorado Page 3 of 7

support of the Eighth Amendment claim that he was imprisoned illegally for fifty-six
months during four different periods of incarceration between November 1997 and
December 2017. He explains the claim as follows:
The plaintiff served 165 months of actual calendar
time in the Colorado Department of Corrections from
November of 1997 to December of 2017. (He was credited
with 217 months toward his sentences in prison. If Good
Time and Earned Time were properly credited to the
claimant, he should have served 109 months to be credited
with 217. 165 minus 109 is 56. The 56 months of over­
incarceration constitutes 56 months of illegal incarceration
and/or false imprisonment. This petitioner asserts that the
defendants are therefore guilty of inflicting cruel and unusual
punishment upon him in violation of the 8th Amendment of
the U.S. Constitution. It is also believed by the plaintiff and
his loved ones that his over-long incarcerations have caused
him post-traumatic stress disorder and another psychological
condition called institutionalization.
(ECF No. 1 at p. 19.) Defendants are the individuals who served as Executive Director
of the DOC from 1990 to the present. According to Mr. Kilman, each past and present
Executive Director of the DOC is “personally responsible for violating his civil rights”
because the DOC “made changes that defy the spirit and plain language of established
laws that [Defendants] were directly in charge of administering, and they had full
knowledge of the scheme that was put into action.” {Id. at p.20.) Mr. Kilman is suing
each Defendant in his individual capacity. He seeks damages as relief.
On August 29, 2019, Magistrate Judge Gallagher ordered Mr. Kilman to show
cause why the Complaint should not be dismissed. Magistrate Judge Gallagher noted
initially that Mr. Kilman's Eighth Amendment claim appears to be barred by the rule in
Heck v. Humphrey, 477 U.S. 512 (1994). Magistrate Judge Gallagher noted that, even if
3

Case l:19-cv-02265-LTB-GPG Document 15 Filed 11/14/19 USDC Colorado Page 4 of 7

the claim is not barred by the rule in Heck, Mr. Kilman fails to allege facts that
demonstrate his federal constitutional rights have been violated or that the named
Defendants personally participated in the asserted constitutional violation. On October
16, 2019, Mr. Kilman filed a response (ECF No. 12) to the show cause order.
Mr. Kilman first argues his constitutional claim is not barred by the rule in Heck
but the Court is not persuaded. Pursuant to Heck, if a judgment for damages
necessarily would imply the invalidity of a criminal conviction or sentence, the action
does not arise until the conviction or sentence has been reversed on direct appeal,
expunged by executive order, declared invalid by an authorized state tribunal, or called
into question by the issuance of a federal habeas writ. Heck, 512 U.S. at 486-87.
Although Mr. Kilman is not challenging the validity of a conviction or sentence, the rule
* in Heck also applies to his Eighth Amendment claim in which he challenges the amount
of good and earned time credits he received and the length of the sentences he actually
served. See Kailey v. Ritter, 500 F. App’x 766, 768-69 (10th Cir. 2012) (§ 1983
complaint by prisoner challenging failure to award meritorious sentence reduction
credits allegedly required under state law “necessarily implies] the invalidity of his
sentence” and “must be dismissed unless [the prisoner] can show that the sentence has
already been invalidated”). In short, a civil rights action filed by a state prisoner “is
barred (absent prior invalidation) - no matter the relief sought (damages or equitable
relief), no matter the target of the prisoner’s suit (state conduct leading to conviction or
internal prison proceedings) - if success in that action would necessarily demonstrate
the invalidity of confinement or its duration.” Wilkinson v. Dotson, 544 U.S. 74, 81-82

Case l:19-cv-02265-LTB-GPG Document 15 Filed 11/14/19 USDC Colorado Page 5 of 7

(2005).
Mr. Kilman does not allege facts that demonstrate he has invalidated the
allegedly illegal periods of incarceration. Furthermore, the fact that he longer is in state
custody with respect to the sentences at issue does not mean his claim should be
allowed to proceed. It is clear that “a petitioner who has no available remedy in habeas,
through no lack of diligence on his part, is not barred by Heck from pursuing a § 1983
claim.” Cohen v. Longshore, 621 F.3d 1311, 1317 (10th Cir. 2010). However, Mr.
Kilman fails to allege facts that demonstrate he was unable to seek habeas relief for the
allegedly illegal periods of incarceration while he was serving those sentences. In other
words, Mr. Kilman had an available remedy in habeas but failed to pursue that remedy
diligently.
The Court also agrees with Magistrate Judge Gallagher that, even if Mr. Kilman’s
Eighth Amendment claim is not barred by Heck, the claim is legally frivolous for two
reasons. First, Mr. Kilman fails to allege facts that demonstrate his constitutional rights
have been violated. The Eighth Amendment's “prohibition of cruel and unusual
punishment imposes a duty on prison officials to provide humane conditions of
confinement, including adequate food, clothing, shelter, sanitation, medical care, and
reasonable safety from serious bodily harm.” Tafoya v. Salazar, 516 F.3d 912, 916
(10th Cir. 2008). In order to state an arguable Eighth Amendment claim Mr. Kilman must
allege specific facts that demonstrate deliberate indifference to a substantial risk of
serious harm. See Farmer v. Brennan, 511 U.S. 825 (1994); Tafoya, 516 F.3d at 916.
Mr. Kilman fails to allege facts that demonstrate deliberate indifference to a
5

Case l:19-cv-02265-LTB-GPG Document 15 Filed 11/14/19 USDC Colorado Page 6 of 7

substantial risk of serious harm. Furthermore, under Colorado law, “good time and
earned time credits serve only to determine the parole eligibility date” and do not
constitute service of a sentence. Meyers v. Price, 842 P.2d 229, 231-32 (Colo. 1992).
Therefore, Mr. Kilman's argument that he was subjected to cruel and unusual
punishment simply because he was denied good and earned time credits authorized by
state law lacks merit.
Second, Mr. Kilman fails to allege specific facts that demonstrate any Defendant
personally participated in the asserted constitutional violation. Allegations of “personal
participation in the specific constitutional violation complained of [are] essential.” Henry
v. Storey, 658 F.3d 1235, 1241 (10th Cir. 2011); see also Foote v. Spiegel, 118 F.3d
1416, 1423 (10th Cir. 1997) (“[individual liability . . . must be based on personal
involvement in the alleged constitutional violation.”). A defendant may not be held liable
for the unconstitutional conduct of his or her subordinates on a theory of respondeat
superior. See Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009). Although a defendant can be
liable based on his or her supervisory responsibilities, a claim of supervisory liability
must be supported by allegations that demonstrate personal involvement, a causal
connection to the constitutional violation, and a culpable state of mind. See Schneider v.
City of Grand Junction Police Dept., 717 F.3d 760, 767-69 (10th Cir. 2013) (discussing
standards for supervisory liability). Because Mr. Kilman fails to allege facts that
demonstrate the various executive directors of the DOC personally participated in the
alleged withholding of good and earned time credits, the Eighth Amendment claim also
is legally frivolous for that reason.
6

,

Case l:19-cv-02265-LTB-GPG Document 15 Filed 11/14/19 USDC Colorado Page 7 of 7

II. RECOMMENDATION
For the reasons set forth herein, this Magistrate Judge respectfully
RECOMMENDS that the Complaint (ECF No. 1) and the action be dismissed
pursuant the rule in Heck v. Humphrey, All U.S. 512 (1994) and as legally frivolous
pursuant to 28 U.S.C. § 1915(e)(2)(B)(i).
DATED November 14, 2019.
BY THE COURT:

Gordon P. Gallagher
United States Magistrate Judge

7

Page 2 of 4

Document: C.R.S. 17-22.5-306

C.R.S. 17-22.5-306
Copy Citation
Current through all laws passed during the 2020 Legislative Session
CO - Colorado Revised Statutes Annotated
CORRECTIONS
PROGRAMS

CORRECTIONAL FACILITIES AND

FACILITIES

COMPUTATION

TITLE 17.

ARTICLE 22.5. INMATE AND PAROLE TIME

PART 3. OFFENDERS SENTENCED FOR CRIMES COMMITTED ON OR

AFTER JULY 1, 1979

17-22.5-306. Transfer of functions

The executive director shall, on and after July 1, 1984, execute, administer, perform, and
enforce the rights, powers, duties, functions, and obligations formerly vested in the state
board of parole with respect to the earned time provisions of section 17-22.5-302.
Notwithstanding any other provision of law to the contrary, the state board of parole shall
carry out all of its other functions as if this section had not been enacted.

History

Source: L. 84: Entire article R&RE, p. 523, § 1, effective July 1.

COLORADO REVISED STATUTES

,'•

https ://advance. lexis.com/documentprint/documi

rifitelick/?pdmfid= 1000516&crid=309... 12/7/2020

Page 1 of 4

Lexis ®

t

Document: C.R.S. 17-22.5-306

J

C.R.S. 17-22.5-306
^ Copy Citation j
Current through all laws passed during the 2020 Legislative Session
CO - Colorado Revised Statutes Annotated
CORRECTIONS
PROGRAMS

CORRECTIONAL FACILITIES AND

FACILITIES

COMPUTATION

TITLE 17.

ARTICLE 22.5. INMATE AND PAROLE TIME

PART 3. OFFENDERS SENTENCED FOR CRIMES COMMITTED ON OR

AFTER JULY 1, 1979

17-22.5-306. Transfer of functions
i •

The executive director shall, on andafter July 1,1984; execute, administer, perform/and

'

enforce the rights, powers, duties, function^,'and obligations forrhefly vested‘in the state-;
board of parole with respect to-the earned time-provisions of section 17-22.5-302.’
Notwithstanding any other provision Of law to the contrary, the state'board Of parole shall
carry out all of its other functions as if this section'had not been enacted.

. L

History :•

. "

-;
Source: L. 84: Entire article R&RE, p. 523, § 1, effective July i.

COLORADO REVISED STATUTES

https://advance.lexis.com/documentprint/documentpnritclick/7pdrnfidH 000516&crid=309... 12/7/2020

Page 1 of 6

Lexis ®

Document: C.R.S. 17-22.5-301

C.R.S. 17-22.5-301

i

Copy Citation

i

Current through all laws passed during the 2020 Legislative Session
CO - Colorado Revised Statutes Annotated
CORRECTIONS
PROGRAMS

CORRECTIONAL FACILITIES AND

FACILITIES

COMPUTATION

TITLE 17.

ARTICLE 22.5. INMATE AND PAROLE TIME

PART 3. OFFENDERS SENTENCED FOR CRIMES COMMITTED ON OR

I

AFTER JULY 1, 1979

17-22.5-301. Good time
(1) Each person sentenced for a crime committed on or after July 1, 1979, but before July 1,
1981, whose conduct indicates that he has substantially observed all of the rules and
regulations of the institution or facility in which he has been confined and has faithfully
performed the duties assigned to him shall be entitled to a good time deduction of fifteen
days a month from his sentence. The good time authorized by this section shall vest quarterly
and may not be withdravvn once it has vested. No more than forty-five days of good time may
be withheld by the department in any three-month period of sentence.
(2) Each person sentenced for a crime committed on or after July 1, 1981, but before July 1,
1985, shall be subject to all the provisions of this part 3; except that the good time
authorized by this section shall vest semiannually and no more than ninety days of good time
may be withheld by the department in any six-month period of sentence.
(3) Each person sentenced for a crime committed on or after July 1, 1985, shall be subject to
all the provisions of this part 3; except that the good time authorized by this section shall not
vest and may be withheld or deducted by the department.

.(

https://advance. lexis. com/documentprint/documentprmtclick/?pdmfid= 1000516&crid=f44...

12/7/2020

Page 2 of 6

(4) Nothing in this section shall be so construed as to prevent the department from
withholding good time earnable in subsequent periods of sentence, but not yet earned, for
conduct occurring in a given period of sentence.

History

Source: L. 84: Entire article R&RE, p. 520, § 1, effective July 1. L. 85: (3) amended, p. 646,
§ 1, effective June 6. L. 98: (3) amended, p. 727, § 10, effective May 18.
r‘ .

t

_ •_

Annotations

Notes
\

Editor's note: This title was numbered as articles 17 and 18 of chapter 39,- C.R.S. - 1963. The substantive provisions of this title were repealed and reenacted in 1977,
resulting in the addition, relocation, and elimination of sections as well as subject
matter. For amendments to this title prior to 1977, consult Colorado statutory research
explanatory note and the table itemizing the replacement volumes and supplements to
the original volume of C.R.S. 1973 beginning on page vii in the front of this volume.
Former C.R.S. section numbers are shown in editor's notes following those sections that
were relocated.
Editor's note: This article was added in 1979. This article was repealed and reenacted
in 1984, resulting in the addition, relocation, and elimination of sections as well as
subject matter. For amendments to this article prior to 1984, consult the Colorado
statutory research explanatory note and the table itemizing the replacement volumes
and supplements to the original volume of C.R.S. 1973 beginning on page vii in the front
of this volume. Former C.R.S. section numbers are shown in'editor's notes following
those sections that were relocated.
' ‘
Editor's note: This section is similar to former § 17-22.5-101 as it existed prior to
1984.
- ,

i

Case Notes
ANNOTATION

i

Law reviews. For article, "Adult Parole in Colorado: An Overview", see 44 Colo. Law. 37(May 2015).

i

https://advance. lexis.com/documentprint/docurneJTtpfmtclick/?pdmfid=l 000516&crid=f44...

12/7/2020

Page 3 of 6

Annotator's note. Since § 17-22.5-301 is similar to former § 17-22.5-101, relevant
cases construing that provision have been included with the annotations to this section.
For other cases construing good time provisions, see the annotations under § 1722.5-201.
There is no constitutional right to good-time credits for presentence
confinement. People v. Cooper, 662 P.2d 478 (Colo. 1983); People v. Turman, 659
P.2d 1368 (Colo. 1983).
But former § 17-22.5-101 mandated good-time credit for presentence
confinement. People v. Chavez, 659 P.2d 1381 (Colo. 1983).
The creation and distribution of good time credits is a matter committed to the
authority of the legislature. A trial court order stipulating that credit be given an
inmate for good time, presentence confinement, and time served in a community
corrections program does not override the discretionary authority granted the
department of corrections by the general assembly to withhold or withdraw such credits.
Renneke v. Kautzky, 782 P.2d 343 (Colo. 1989).
For crimes committed on or after July 1, 1985, credit for good time is within
discretionary authority of the department of corrections. Since the department of
corrections may withhold or deduct good time credits, an inmate's maximum control
date, as initially calculated by the department of corrections, is not necessarily the date
upon which he is entitled to unconditional release. Renneke v. Kautzky, 782 P.2d 343
(Colo. 1989).

!
^

Presentence confinement. There is no statutory requirement that a sentencing court
include in the mittimus information concerning a defendant's eligibility for good time
credit for time spent in presentence confinement. Although such information is often
included in the mittimus, it is the department of corrections alone which ultimately
determines whether a defendant receives and maintains good time credit. People v.
White, 981 P.2d 624 (Colo. App. 1998).

I

Confinement in county jail. To the extent that a defendant's' sentence is served by
confinement in county jail, the good-time credit provisions of former § 17-22.5-101
applied. People v. Chavez, 659 P.2d 1381 (Colo. 1983); People v. Roedel, 701 P.2d 891
(Colo. App. 1985).

i

By statute/good time credit for presentence.confinement exists only in the case of
crimes committed on or after July 1, 1979. People v. Emig, 676 P.2d 1156 (Colo. 1984).
When defendant entitled to credits. Where the trial court accepts a stipulation
stating that the defendant substantially observed all of the rules and regulations of the
county jail and faithfully performed the duties assigned to him, he is entitled to good­
time credits for his presentence confinement. People v. Hamilton, 662 P.2d 177 (Colo.
1983); People v. Roedel, 701 P.2d 891 (Colo. App. 1985).

i

Where presentence report reflects that defendant had met the other
requirements for a "good time" credit for the period of his presentence confinement,
this section requires that the department of corrections recognize such credit. People v.
Chavez, 659 P.2d 1381 (Colo. 1983); People v. Johnson, 776 P.2d 1141 (Colo. App.
1989), rev'd on other grounds, 797 P.2d 1296 (Colo. 1990).
Use of word "shall" mandates good time deduction to each person whose conduct
indicates that he or she has observed the rules and regulations of the facility in which
such person is confined. People v. Galvin, 835 P.2d 603 (Colo. App. 1992).
Because equal protection and due process claims were not clearly established
rights at the time presentence good time credits of inmate were improperly
withheld, individual defendants are qualifiedly immune from suit for compensatory
damages. Griess v. State of Colo., 841 F.2d 1042 (10th Cir. 1988) (decided under
former § 17-20-107).

!

An inmate who is incarcerated in the state prison system is eligible for two
types of time deduction from his sentence. The first is "good time", under this

.1:7
https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=f44...

12/7/2020

Page 4 of 6

section, which rewards the inmate who substantially observes the rules and regulations
of the facility in which he is confined and who faithfully performs his assigned duties.
The second is "earned time" pursuant to § 17-22.5-302 (1) which is provided if the
inmate makes substantial progress in matters such as work and training. Bynum v.
Kautzky, 784 P.2d 735 (Colo. 1989).

!
I

I

Aggregation of consecutive sentences is proper when calculating good time
credit. People v. Broga, 750 P.2d 59 (Colo. 1988).

I

Good time and earned time credits do not constitute service of sentence and are
only used to determine inmate's parole eligibility date. Thorson v. Dept, of Corr., 801
P.2d 540 (Colo. 1990); Myers v. Price, 842 P.2d 229 (Colo. 1992).
For inmates convicted of crimes committed after July 1, 1993, good time
credits awarded by this section are only applied to calculate parole eligibility
and not applied toward an inmate's mandatory release date. Ankeney v.
Raemisch, 2015 CO 14, 344 P.3d 847.
’ ' s
Although the legislature revised and relocated the good time, earned time, and
parole provisions originally included in § 16-11-310, eventually moving them to
their present location in the statutes in this section and § § 17-22.5-302 and 1722.5-303, there is nothing in those revisions which would indicate that § 16-11-310 was
meant to render inoperative the provision in § 17-22.5-303 allowing reincarceration for
a parole violation. Such an interpretation is unjustified since it would severely undermine
the ability of the parole system to effect the successful reintegration of former inmates
into the community while recognizing the need for public safety. Bynum v. Kautzky, 784
P.2d 735 (Colo. 1989).
The earned time and good time provisions of this section and § 17-22.5-302 do
not preclude the reincarceration of an inmate for violation of his parole. These
sections, together with § 16-11-310 (now repealed), were only intended to establish the
mandatory date of release on parole. Thus, with respect to parole, the good time and
earned time credits "vest" only for the purpose of determining parole eligibility, not for
purposes of determining whether reincarceration is possible once a former inmate has
violated his parole. Bynum v. Kautzky, 784 P.2d 735 (Colo. 1989); Williamson v. Jordan,
797 P.2d 744 (Colo. 1990); Jones v. Martinez, 799 P.2d 385 (Colo. 1990).
-

*

•

'

», ■

Section does not limit the place of confinement where good-time credit can be
earned to only>those facilities under the supervision of the department of corrections. Community corrections board also has the discretion to withhold or deduct against good­
I• •
time credits. People v. Galvin, 835 P.2d 603 (Colo. App.'1992).
Good time and earned time credits are not to be credited towards service of
sentence but only toward eligibility for parole. Rather v. Suthers, 973 P.2d 1264
(Colo. 1999).
^
'
- i. ■
•
Person convicted of a sex offense is not entitled to mandatory parole; therefore,
the accumulation of good time and earned time credits do not make person eligible for .
immediate release. Rather v. Suthers, 973 P.2d 1264 (Colo. 1999).

• i

COLORADO REVISED STATUTES

Content Type: Statutes and Legislation

/U2

https://advance.lexis.coin/documentprint/documenTprintclick/?pdmfid=1000516&crid=f44...

12/7/2020

Lexis

Document: C.R.S. 17-22.5-302

C.R.S. 17-22.5-302
V

Copy Citation
Current through all laws passed during the 2020 Legislative Session
CO - Colorado Revised Statutes Annotated
CORRECTIONS
PROGRAMS

TITLE 17.

CORRECTIONAL FACILITIES AND

FACILITIES

COMPUTATION

ARTICLE 22.5. INMATE AND PAROLE TIME

PART 3. OFFENDERS SENTENCED FOR CRIMES COMMITTED ON OR

AFTER JULY 1, 1979

17-22.5-302. Earned time
(1) In addition to the good time authorized in section 17-22.5-301, earned time, not to
exceed thirty days for every six months of incarceration, may be deducted from the inmate's
sentence upon a demonstration to.the department by the inmate that he has made
substantial and consistent progress in each of the following categories:
(a) Work and training, including attendance, promptness, performance, cooperation, care of
materials, and safety;
(b) Group living, including housekeeping, personal hygiene, cooperation, social adjustment,
and double bunking;
(c) Participation in counseling sessions and involvement in self-help groups;
(d) Progress toward the goals and programs established by the Colorado diagnostic program.
(1.3) Notwithstanding the provisions of subsection (1) of this section to the contrary, after
his or her first ninety days in administrative segregation, a state inmate in administrative
segregation shall be eligible to receive earned time if he or she meets the criteria required by
this section or any modified criteria developed by the department to allow a state inmate to

https://advance. lexis. com/documentprint/documenTprmtclick/?pdmfid=1000516&crid=lf6...

12/7/2020

Page 2 of 6

receive the maximum amount of earned time allowable for good behavior and participation in
any programs available to the state inmate in administrative segregation.
(1.5) (a) In addition to the thirty days of earned time authorized in subsection (1) of this
section, an inmate who makes positive progress, in accordance with performance standards,
goals, and objectives established by the department, in the correctional education program
established pursuant to section 17-32-105, shall receive earned time pursuant to section 1722.5-405; except that, if, upon review of the inmate's performance record, the inmate has
failed to satisfactorily perform in the correctional education program, any earned time
received pursuant to this paragraph, (a) may be withdrawn as provided in subsection (4) of
this section. For purposes of this paragraph (a), "positive progress", at a minimum, means
that the person is attentive, responsive, and cooperative during the course of instruction and
satisfactorily completes required work assignments equivalent to the courses and hours
necessary for advancement at a rate of one grade level per calendar year in the school district
where such inmate was last enrolled.
(b) Repealed.
(2) The department shall develop objective standards for measuring substantial and
consistent progress in the categories listed in subsection (1) of this section. Such standards
shall be applied in all evaluations of inmates for the earned time authorized in this section.
(3) For each inmate sentenced for a crime committed on or after July 1, 1979, but before
July 1, 1985, the department shall review the performance record of the inmate and shall
grant, consistent with the provisions of this section, an earned time deduction from the
sentence imposed. Such review shall be conducted at least annually; except that, in the case
of an inmate who has one year or less of his sentence remaining to be served, the review
shall be conducted at least semiannually. The earned time deduction authorized by this
section shall vest upon being granted and may not be withdrawn once it is granted.
(4) For each inmate sentenced for a crime committed on or after July 1, 1985, the
department shall review the performance record of the inmate and may grant, withhold,
withdraw, or restore, consistent with the provisions of this section, an earned time deduction
from the sentence imposed. Such review shall be conducted as specified in subsection (3) of
this section; except that the earned time deduction authorized by this subsection (4) shall not
vest upon being granted and may be withdrawn once it is granted.
(5) For each inmate sentenced for a crime committed on or after July 1, 1987, the
department shall not credit such inmate with more than one-half of his allowable earned time
for any six-month period or portion thereof unless such inmate was employed or was
participating in institutional training or treatment programs provided by the department or
was participating in sorne combination of such employment, training, of treatment programs.

.10
https://advance.lexis.com/documentprint/documentpFirffclick/?pdmfid=1000516&crid=lf6...

12/7/2020

«

Page 3 of 6

This subsection (5) shall not apply to those inmates excused from such employment or
programs for medical reasons.

History

Source: L. 84: Entire article R&RE, p. 521, § 1, effective July 1. L. 87: (5) added, p. 654, §
10, effective March 27. L. 88: (1.5) added, p. 697, § 3, effective July 1. L. 90: (1.5)(a)
amended and (1.5)(b) repealed, pp. 976, 977, § § 3, 7, effective July 1. L. 91: (1.5)(a)
amended, p. 431, § 9, effective May 24. L. 92: (1.5)(a) amended, p. 2173, § 23, effective
June 2. L. 2011: (1.3) added, (SB 11-176), ch. 289, p. 1343, § 3, effective July 1. L. 2020:
(1.5)(a) amended, (HB 20-1402), ch. 216, p. 1047, § 29, effective June 30.

Annotations

Notes
Editor's note: This section is similar to former § 17-22.5-102 as it existed prior to
1984.

1

Cross references: For the Colorado diagnostic program, see article 40 of this title 17.

Case Notes
ANNOTATION
An inmate does not have a vested right in earned time, so the inmate's
punishment is not increased by withholding earned time from the inmate for not
participating in sex offender treatment. Reeves v. Colo. Dept, of Corr., 155 P.3d 648
(Colo. App. 2007).
The creation and distribution of credits to be applied against an inmate's
sentence are matters committed to the authority of the legislature; trial court
orders do not prevail over the letter and intent of statutory provisions adopted by the
general assembly. Renneke v. Kautzky, 782 P.2d 343 (Colo. 1989).
For crimes committed on or after July 1, 1985, deductions for earned time are
within discretionary authority of the department of corrections. Since the
department of corrections may withhold, withdraw, or restore earned time deductions,

https://advance.lexis.com/documentprint/documeni

Sck/?pdmfid= 1000516&crid= 1 f6...

12/7/2020

Page 4 of 6

an inmate's maximum control date, as initially calculated by the department of
corrections, is not necessarily the date upon which he is entitled to unconditional
release. Renneke v. Kautzky, 782 P.2d 343 (Colo. 1989).
Granting of earned time credit for educational programs under subsection (1.5)
lies with the discretion of the department. To read "shall" in subsection (1.5) in a
mandatory sense would create an absurd result. An inmate has no clear right to receive
and department has no clear duty to grant earned time credit. Verrier v. Dept, of Corr.,
77 P.3d 875 (Colo. App. 2003).

(
,
■

’
i
f
*

Good time and earned time credits do not constitute service of sentence and are
only used to determine inmate's parole eligibility date. Thorson v; Dept, of Corr., 801
P.2d 540 (Colo. 1990); Myers v. Price, 842 P.2d 229 (Colo. 1992).

j

Subsection (3) of this section and § § 16-11-310 (now repealed), 17-22.5-301
(2), and 17-22.5-303 (2) do not preclude the reincarceration of a person for
violating his parole even though his time served, together with his good time and
earned time credits accrued, equal or exceed the length of the sentence originally
imposed. Bynum v. Kautzky, 784 P.2d 735 (Colo. 1989); Williamson v. Jordan, 797 P.2d
744 (Colo. 1990); Jones v. Martinez, 799 P.2d 385 (Colo. 1990).

I
j

The earned time and good time provisions of this section and § 17-22.5-301 do
not preclude the reincarceration of an inmate for violation of his parole. These
sections, together with § 16-11-310 (now repealed), were only intended to establish the
mandatory date of release on parole. Thus, with respect to parole, the good time and
earned time credits "vest" only for the purpose of determining parole eligibility, not for
purposes of determining whether reincarceration is possible once a former inmate has
violated his parole. Bynum v. Kautzky, 784 P.2d 735 (Colo. 1989); Williamson v. Jordan,
797 P.2d 744 (Colo.1990); Jones v. Martinez, 799 P.2d 385 (Colo. 1990). '

'
i
I
|

Inmates in administrative segregation do not meet certain criteria required for
an award of earned time credits, even under the apparently mandatory subsection. ,
Tempelman v. Gunter,' 16 F.3d 367 (10th Cir. 1994).

.
j
j

i

An inmate who is incarcerated in the state prison system is eligible for two
types of time deduction from his sentence. The first is "good time" pursuant to §
17-22.5-301, which rewards the inmate who substantially observes the rules and
regulations of the facility in which he is confined and who faithfully performs his
assigned duties. The second is "earned time" under this section which is provided if the
inmate makes substantial progress in matters such as work and training. Bynum v.
Kautzky, 784 P.2d 735 (Colo. 1989).
Inmate not entitled to earned time for time spent in county jail because statutory
requirements of this section were not met. People v: Alderman, 720 P.2d 1000 (Colo,
App. 1986).

3

i

COLORADO REVISED STATUTES
•

1•

•

i

'

,. t *

•• >

Content Type: Statutes and Legislation
Terms: 17-22.5-302
Narrow By: -None-

https://advance. lexis. com/documentprint/documentprmtclick/?pdmfid=l 000516&crid=lf6...

12/7/2020

Page 1 of 8

Lexis®

• J

Document: C.R.S. 17-22.5-405

* *

C.R.S. 17-22.5-405
)

Copy Citation

I

!

Current through all laws passed during the 2020 Legislative Session
CO - Colorado Revised Statutes Annotated
CORRECTIONS
PROGRAMS

TITLE 17.

CORRECTIONAL FACILITIES AND,

FACILITIES

COMPUTATION

i

<'.

ARTICLE 22.5. INMATE: AND PAROLE TIME

PART 4. PAROLE ELIGIBILITY AND DISCHARGE FROM CUSTODY

17-22.5-405. Earned time - earned release time - achievement earned
time - definition
(1) Earned time, not to exceed ten days for each month of incarceration or parole, may be
deducted from the inmate's sentence upon a demonstration to the department by the inmate,
which is certified by the inmate's case manager or community parole officer, that the inmate
has made consistent progress in the following categories*as required by the department of
corrections:
(a) Work and training, including attendance, promptness, performance, cooperation, care of
materials, and safety;
(b) Group living, including housekeeping, personal hygiene, cooperation, social adjustment,
and double bunking;
(c) Participation in counseling sessions and involvement in self-help groups;
(d) Progress toward the goals and programs established by the Colorado diagnostic program;
(e) For any inmates who have been paroled, compliance with the conditions of parole
release;
(f) The offender has not harassed the victim either verbally or in writing;

https://advance.lexis.com/documentprint/docui

A.ZS
!mtclick/?pdmfid= 1000516&crid=3ed...

12/7/2020

Page 2 of 8

(g) The inmate has made positive progress, in accordance with performance standards
established by the department, in the correctional education program established pursuant to
article 32 of this title;
(h) The inmate has .shown exemplary leadership through mentoring, community service, and
distinguished actions benefiting the health, safety, environment, and culture for staff and
other inmates. ;
(1.2) Subsection (1) of this section applies to a person who was convicted as an adult, for a
class 1 felony committed while the person was a juvenile and who was sentenced pursuant to
section 18-T.3-4Ql(4)(b) or (4)(c), C.R.S. As to a person who was convicted as an adult for
a class 1 felony committed while the person was a juvenile and who was sentenced pursuant
to section 18-1.3-401 (4)(.e), C.R.S., it is the intent of the general assembly that the
department award earned time to such a person both prospectively and retroactively from
June 10, 2016, as if the person had been eligible to be awarded earned time from the
beginning of his or her incarceration pursuant to the sentence that he or she originally

< ,

received for such felony. -

<-

(1.5) (a) Earned time, not to exceed twelve days for each month of incarceration or parole,
may be deducted from an inmate's.sentence if the inmate:
(I) Is serving a sentence for a. class 4, class 5, or class 6 felony or level 3 or level 4 drug
felony;

\

(II) Has not incurred a class I code of penal discipline; violation within the twenty-four
months immediately preceding the time of crediting or,during his or her entire term of
incarceration if the term is less than twenty-four months or a class II code of penal discipline
violation within the twelve months immediately preceding the time of crediting or during his
or her entire term of incarceration if the term is less,than twelve months;
(III) Is program-compliant; and

■

.

(IV) Was not convicted of, and has not previously been convicted of, a felony crime described
in section 18-3-303, 18-3-305,,18-3-306, or 18-6-701, sections, 18-7-402 to. 18-7-407, or
section 18-12-102 or 18-12-109,X.R.S., or a felony crime listed in section 24-4.1-302 (1),
C.R.S.
(b) The earned time specified in subsection (1.5)(a) of this section, may be deducted based .
upon a demonstration to the department bythe inmate; which is certified by the inmate's
case manager or community parole officer, that he or she has made positive progress in
accordance with performance standards established by the department.
(c) Nothing in this subsection (1.5) shall preclude an inmate from receiving earned time
pursuant to subsection (1) of this section if the inmate does not qualify for earned time
pursuant to this subsection (1.5).

https://advance.lexis.com/documentprint/documentp'

ick/?pdmfid=1000516&crid=3 ed...

12/7/2020

1

Page 3 of 8

(2) The department shall develop objective standards for measuring consistent progress in
the categories listed in subsection (1) of this section. Such standards shall be applied in all
evaluations of inmates for the earned time authorized in this section.
(3) For each inmate sentenced to the custody of the department, or for each parolee, the
department shall review the performance record of the inmate or parolee and may grant,
withhold, withdraw, or restore, consistent with the provisions of this section, an earned time
deduction from the sentence imposed. Such review shall be conducted annually while such
person is incarcerated and semiannually while such person is on parole^and shall vest upon
being granted. However, any earned time granted to a parolee shall vest upon completion of
any semiannual review unless an administrative hearing within the department determines
that such parolee engaged in criminal activity during the time period for which such earned
time was granted, in which case the earned time granted during such period may be
withdrawn. In addition to any other sanctions, the executive director may refer to the district
attorney all cases where the offender tests positive for the presence of drugs.
(3.5) In addition to the earned time deducted pursuant to subsection (1) of this section, an
inmate working at a disaster site pursuant to section 17-24-124 shall be entitled to additional
earned time in the amount of one day of earned time for every day spent at a disaster site.
(4) (a) Except as described in subsection (6) or (9) of this section or in paragraph (b) of this
subsection (4), and notwithstanding any other provision of this section, earned time may not
reduce the sentence of an inmate as defined in section 17-22.5r402 (1) by a period of time
that is more than thirty percent of the sentence.

''

(b) Earned time may not reduce the sentence of an inmate described in subsection (1.2) of
this section by a period of time that is more than-twenty-five percent of the sentence.
(5) (a) Notwithstanding subsections (1), (2), and (3) of this section, an offender who is
sentenced and paroled for a felony offense other than a nonviolent felony committed on or
after July 1, 1993, shall not be eligible to receive any earned time while the offender is on
parole. An offender who is sentenced and paroled for a nonviolent felony offense committed
on or after July 1, 1993, shall be eligible to receive any earned time while the offender is on
parole.
(a.5) Notwithstanding the provisions of paragraph (a) of this subsection (5), an Offender who
is sentenced for a felony committed on or after July 1, 1993, and paroled on or after January
1, 2009, shall be eligible to receive any earned time while on parole or after reparole
following a parole revocation.

■

(b) As used in this subsection (5), unless the context otherwise requires, a "nonviolent felony
offense" means a felony offense other than a crime of violence as defined in section
18-1.3-406 (2), C.R.S., any of the felony offenses set forth in section 18-3-104, 18-4-203, or

https://advance.lexis.com/documentpriniydocumentpnrffclick/7pdmficNl 000516&crid=3ed...

12/7/2020

f

Page 4 of 8

18-4-301, C.R.S., or any felony offense committed against a child as set forth in articles 3, 6,
and 7 of title 18, C.R.S.
(6) Earned release time shall be scheduled by the state board of parole and the time
computation unit in the department of corrections for inmates convicted of class 4 and class 5
felonies or level 3 drug felonies up to sixty days prior to the mandatory release date and for
inmates convicted of class 6 felonies or level 4 drug felonies up to thirty days prior to the
mandatory release date for inmates who meet the following criteria:
(a) The inmate has not incurred a class I code of penal discipline violation within the twentyfour months immediately preceding the time of crediting or during his or her entire term of
incarceration if the term is less than twenty-four months or a class II code of penal discipline
violation within the twelve months immediately preceding the time of crediting or during his
or her entire term of incarceration if the term is less than twelve months;
(b) The inmate is program-compliant; and
(c) The inmate was not convicted of, and has not previously been convicted of, a felony crime
described in section 18-3-303', 18-3-305, 18-3-306, or 18-6-701, sections 18-7-402 to 18-7407, or section 18-12-102 or 18-12-109, C.R.S., or a felony crime listed in section
24-4.1-302 (1), C.R.S.
(7) Beginning in the fiscal year 2012-13, the general assembly may appropriate the savings
generated by subsections (1.5) and (6) of this section to recidivism-reduction programs.
(8) Notwithstanding any provision of this section to the contrary, after his or her first ninety
days in administrative segregation, a state inmate in administrative segregation shall be
eligible to receive earned time if he or she meets the criteria required by this section or any
modified criteria developed by the department to allow a state inmate to receive the
maximum amount of earned time allowable for good behavior and participation in any
programs available to the state inmate in administrative segregation.
(9) (a) Notwithstanding any provision, of-this section to the contrary, in addition to the
earned time authorized in this section, an offender who successfully completes a milestone or
phase-of an educational, vocational, therapeutic, or reentry program, or who demonstrates
exceptional conduct that promotes the safety of correctional staff, volunteers, contractors, or
other persons under the supervision of the.,department-of corrections, may be awarded as
many as sixty days of achievement earned time per program milestone or phase or per ■
instance of exceptional conduct, at the discretion of the executive director; except that an
offender shall not be awarded more than one hundred twenty days of achievement earned
time pursuant to this subsection (9).

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=3ed...

12/7/2020

Page 5 of 8

(a.5) (I) Pursuant to the intent of the general assembly in enacting House Bill 12-1223
during the 2012 regular session, the general assembly shall appropriate savings generated
from the enactment of this subsection (9) to: .
(A) The education subprogram, for academic and vocational programs to offenders; and
(B) The parole subprogram, for parole wraparound services.
(II) Notwithstanding the provisions of subparagraph (I) of this paragraph (a.5), the
appropriation described in said subparagraph (I) must not exceed six million five hundred
thousand dollars in any fiscal year.

■.

(III) In allocating the moneys appropriated pursuant to sub-subparagraph (B) of
subparagraph (I) of this paragraph (a.5), the department shall give priority to parole
wraparound services that are administered based on evidence-based practices.
(b) As used in this section, unless the context otherwise requires, "exceptional conduct"
includes, but is not limited to:
(I) Saving or attempting to save the life of another person;
(II) Aiding in the prevention of serious bodily injury or loss of life;
(III) Providing significant assistance in the prevention of a major facility disruption;
(IV) Providing significant assistance in the solving of a cold case, as defined in section
24-4.1-302 (1.2), C.R.S.;
(V) Acting to prevent an escape; or, ■

.

(VI) Providing direct assistance ,in a documented facility or community emergency.

j

• :■

History

Source: L. 90: Bntire part added, p. 952, § 19, effective June 7. L. 91: (l)(g) amended, p.
1912, § 20, effective June 1- L. 93: (5) added,'p. 1980, § 5, effective July 1. L. 95: (5)
amended, p. 879, § 14, effective May'24-. L. 97: (5)(b) amended, p. 1548, § 24, effective
July 1. L. 2001: (3.5) added, p. 1452, § 2, effective June 5. L: 2002: (5)(a) and (5)(b)
amended, p. 1507, § 165, effective October 1.' L. 2008: IP( 1) amended, p. 658, § 9, effective
April 25; (5)(a.5) added, p. 1756, § 3, effective July 1. L. 2009: (1.5), (6), and (7) added
and (4) amended, (HB 09-1351), ch. 359, p. 1866, § 1, effective June 1. L. 2010: (1.5)(a)
and (6) amended, (HB 10-1374), ch. 261, p. 1181, § 5, effective May 25. L. 2011: (8)
added, (SB 11-176), ch. 289, p. 1343, § 4, effective July 1. L. 2012: (4), (5)(a), and (5)
(a.5) amended and (9) added, (HB 12-1223), ch. 213, p. 916, § 2, effective May 24. L.
2013: (1.5)(a)(I) and IP(6) amended, (SB 13-250), ch. 333, p. 1934, § 51, effective October

https://advance.lexis.com/documentprint/documentprintclick/7pdmficN 1000516&crid=3ed...

12/7/2020

Page 6 of 8

1. L. 2015: (9)(a.5) added, (SB 15-195), ch. 279, p. 1144, § 1, effective August 5. L. 2016:
(1.2) added and (4) amended, (SB 16-181), ch. 353, p. 1450, § 4, effective June 10. L.
2020: IP(1) and (1.5)(b) amended and (l)(h) added, (HB 20-1019), ch. 9, p. 26, § 6,
effective March 6; (l)(g) amended, (HB 20-1402), ch. 216, p. 1047, § 30, effective June 30.

!
!

▼ Annotations

I

Notes
i
l

Cross references: For the legislative declaration contained in the 2002 act amending
subsections (5)(a) and (5)(b), see section 1 of chapter 318, Session Laws of Colorado
2002. For the legislative declaration in the 2012 act amending subsections (4), (5)(a),
and (5)(a.5) and adding subsection (9), see section 1 of chapter 213, Session Laws of
Colorado 2012.

i

Case Notes
ANNOTATION
Exclusion of felony theft from definition of "nonviolent felony offenses" in this
section did not operate to deny defendant equal protection of the law. People v.
Gonzales, 973 P.2d 732 (Colo. App. 1999).

t

An inmate does not have a vested right in earned time, so the inmate's
punishment is not increased by withholding earned time from the inmate for not
participating in sex offender treatment. Reeves v. Colo. Dept, of Corr., 155 P.3d 648
(Colo. App. 2007).

i

Earned time credit not available for presentence confinement. People v. Maestas,
920 P.2d 875 (Colo. App. 1996).

:

Where prisoner was not in the custody of the department of corrections, but was instead
held in a county jail awaiting sentencing, credit was not available under this section.
People v. Maestas, 920 P.2d 875 (Colo. App. 1996).
Earned time credits are not required to be given when serving a concurrent
sentence in a federal prison, but department was required to conduct a hearing
pursuant to subsection (3). When state and federal sentences are running concurrently,
even when defendant was in federal prison, defendant was in the custody of the
department. People v. Frank, 30 P.3d 664 (Colo. App. 2000).

COLORADO REVISED STATUTES

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l 000516&crid=3ed...

12/7/2020

